  September 27, 2006




Financial Management
Report on Civilian Payroll and
Withholding Data for FY 2006
(D-2006-119)




                   Department of Defense
                  Office of Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DCPS                  Defense Civilian Pay System
DFAS                  Defense Finance and Accounting Service
DOE                   Department of Energy
FEGLI                 Federal Employees Group Life Insurance
HHS                   Health and Human Services
OPF                   Official Personnel File
OPM                   Office of Personnel Management
RITS                  Retirement Insurance Transfer System
                            INSPECTOR GENERAL 

                           DEPARTMENT OF DEFENSE 

                              400 ARMY NAVY DRIVE 

                         ARLINGTON, VIRGINIA 22202-4704 





                                                                       September 27,2006
MEMORANDUM FOR DISTRIBUTION
SUBJECT: Report on Civilian Payroll and Withholding Data for FY 2006 (Report
         NO. D-2006-119)

        We are providing this report for review and comment. The Army, Navy, National
Guard Bureau, Department of Energy, and Department of Health and Human Services did
not respond to the draft report; however, we considered comments from the Department
of the Air Force and the Defense Finance and Accounting Service when preparing the
final report.
       DoD Directive 7650.3 requires that all recommendations be resolved proniptly.
The Defense Finance and Accounting Service comments were not responsive. We
request that the Army, Navy, National Guard Bureau, Department of Energy, and
Department of Health and Human Services provide comments on the recommendations
by November 1,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. You should direct your
questions to Mr. Douglas P. Neville at (703) 428-1061 @SN 328-1061) or Mr. Thomas J.
Winter at (703) 428-1082 (DSN 328-1082). For the report distribution, see Appendix C.
The team members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:



                                      kt-Paul J. Granetto, CPA
                                       Assistant Inspector General 

                                       Defense Financial Auditing 

                                                 Service 

DISTRIBUTION

INSPECTOR GENERAL, DEPARTMENT OF ENERGY
INSPECTOR GENERAL, DEPARTMENT OF HEALTH AND HUMAN SERVICES
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
  AND COMPTROLLER)
CHIEF, NATIONAL GUARD BUREAU
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
ASSISTANT INSPECTOR GENERAL FOR AUDITS, OFFICE OF PERSONNEL
  MANAGEMENT
                Department of Defense Office of Inspector General
Report No. D-2006-119                                                 September 27, 2006
   (Project No. D2006-D000FP-0073.000)

             Civilian Payroll and Withholding Data for FY 2006

                                 Executive Summary

Who Should Read This Report and Why? This report is intended for the use of the
Office of Personnel Management (OPM) Inspector General and its Chief Financial
Officer and should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes. The report
discusses the results of agreed-upon audit procedures developed for the OPM.
Background. Office of Management and Budget Bulletin No. 01-02, “Audit
Requirements for Federal Financial Statements” October 16, 2000, requires all Federal
agencies to review their civilian employee retirement, health benefits, and life insurance
payroll withholdings. The OPM Inspector General and its Chief Financial Officer
developed specific agreed-upon procedures to review civilian employees’ withholdings
and are, therefore, responsible for the adequacy of the agreed-upon procedures. We
applied the agreed-upon procedures in accordance with the standards established by the
American Institute of Certified Public Accountants. The FY 2006 agreed-upon
procedures included DoD, Department of Energy (DOE) and Department of Health and
Human Services (HHS), which recently transitioned its payroll functions to the Defense
Finance and Accounting Service (DFAS). DoD had about 691,000 employees, DOE had
about 11,000 employees, and HHS had about 65,000 employees. We did not audit the
DOE or HHS personnel files. KPMG LLP auditors engaged to audit the DOE FY 2006
financial statements audited the DOE files and auditors for the HHS Inspector General
audited the HHS files. Both parties provided their working papers to us. We entered into
Memorandums of Understanding with the DOE and HHS to establish the scope of work
to be performed by each agency.
Results. The payroll withholding amounts and total payroll amounts that DFAS reported
to OPM did not exactly match the supporting detail that DFAS provided for our analysis.
However, the differences are less than the thresholds prescribed in the agreed-upon
procedures. This is a repeat issue reported in prior Inspector General audits. For details
of the analysis, see the Independent Auditor’s Report and the attachment.

Withholding Data Discrepancies. We selected a sample of 270 employees and
compared their payroll withholdings to authorizations in their official personnel files.
The sample of 270 consisted of 180 DoD employees, 45 DOE employees and 45 HHS
employees. The comparison revealed that 19 of the 270 employee files sampled had a
total of 24 discrepancies.

Conclusion. We performed the agreed-upon procedures specifically pertaining to
payroll. We were not engaged to and did not perform an audit with the objective of
expressing an opinion on the withholdings and contributions for health benefits, life
insurance, retirement, or on the employee headcount of the DoD, DOE, and HHS.
Therefore, we are not expressing an opinion. We performed additional procedures based
on generally accepted government auditing standards that we considered necessary in the
circumstances.
We compared Forms 592, used for Payroll Certification and Summary, with the total
payroll amounts in the payroll files. We found no material differences between the
DFAS payroll footings and the corresponding amounts reported on Forms 592. This
accuracy is a significant improvement from FYs 2003 and 2004, and a slight
improvement from FY 2005. We compared Forms 2812, used for reporting the
withholdings and contributions for health benefits, life insurance, and retirement, with
data in the Defense Civilian Pay System. The differences were less than the reporting
threshold criteria of 1 percent established in the agreed-upon procedures for these
categories.

DFAS, DoD, DOE, and HHS should continue to strengthen management controls over
the accuracy of payroll amounts withheld and remitted to the OPM. The withholding
amounts we calculated while performing the agreed-upon procedures differed from the
withholding amounts presented in the DFAS reports.

Management Comments and Audit Response. The Department of the Air Force
concurred with the recommendation and took responsive corrective action. The Defense
Finance and Accounting Service also concurred with Recommendation 3, but
nonconcurred with the report’s assertion of an internal control material weakness.
Management comments on the weakness are not responsive. The Department of the
Army, Department of the Navy, National Guard Bureau, Department of Energy, and
Department of Health and Human Services did not provide comments on the draft of this
report; therefore, we request that these organizations provide comments on this final
report by November 1, 2006. The management comments are discussed in the Overview
section of this report. We included the full text of the Defense Finance and Accounting
Service comments in the Management Comments section of this report.




                                             ii
Table of Contents

Executive Summary                                                   i

Independent Auditor’s Report
     Overview                                                      1
     Agreed-upon Procedures and Associated Findings (Attachment)   6

Appendixes
     A. Scope and Methodology                                      16
          Review of Internal Controls                              17
     B. Prior Coverage                                             18
     C. Report Distribution                                        19

Management Comments
     Department of the Air Force                                   21
     Defense Finance and Accounting Service                        22
                                  Independent Auditor’s Report

                                                Overview

           We performed the procedures described in the attachment, agreed to by the Office
           of Personnel Management (OPM) Inspector General and Chief Financial Officer.
           We performed the procedures solely to assist OPM with respect to employee
           withholdings and employer contributions reported on the Report of Withholdings
           and Contributions for health benefits, life insurance, and retirement for the payroll
           periods ended October 29, 2005, February 18, 2006, and March 4, 2006; and
           Semiannual Headcount Reports as of February 18, 2006, and March 4, 2006. We
           performed this engagement to apply agreed-upon procedures in accordance with
           the standards established by the American Institute of Certified Public
           Accountants. The sufficiency of the procedures is solely the responsibility of
           OPM’s Inspector General and its Chief Financial Officer. Consequently, we
           make no representation regarding the attachment either for the purpose for which
           this report has been requested or for any other purpose.

           Comparison of Amounts Withheld and Remittance to OPM. In recent years
           the Defense Finance and Accounting Service (DFAS) and supporting DoD
           organizations have improved management controls over the accuracy of the
           payroll amounts withheld and reported to OPM. We performed the agreed-upon
           procedures to compare the amounts reported to OPM with the amounts actually
           withheld from employees’ pay. DFAS captures the data necessary to perform the
           agreed-upon procedures at the end of each pay period because the payroll system
           can be adjusted retroactively. The amounts differed slightly. However, the
           differences were less than the threshold criteria prescribed in the agreed-upon
           procedures.

           Internal Control Program. We identified a material management control
           weakness; however, controls are improved over prior years. The weakness is
           discussed in Appendix A.

           Payroll File Totals. The payroll withholding amounts DFAS reported to OPM
           for DoD, Department of Energy (DOE), and Department of Health and Human
           Services (HHS) differed from the totals of the DFAS database (the amounts
           actually withheld) by $101,815 for an overall error rate of 0.028 percent. This is
           similar to the difference noted for FY 2005. The overall differences for
           retirement, health benefits, and life insurance were less than the reporting
           threshold criteria of 1 percent established in the agreed-upon procedures.
           However, the difference still represents a material internal control weakness
           because of the sensitivity of payroll to individual employees. Small individual
           differences can have a significant effect on the affected employees’ earnings.
           Payroll Certification and Summary. The total of the gross payroll amounts in
           the four DoD payroll files sampled, 1 plus the DOE and HHS files (a total of six
           files), was $5.2 billion for the three pay periods we reviewed. The $5.2 billion

1
    The agreed-upon procedures require sampling of payroll files of 30,000 or more employees.



                                                     1
           represents 11.5 percent of the annual gross pay for those payrolls. This agreed
           with the total of amounts documented on Form 592, “Payroll for Personnel
           Services Payroll Certification and Summary,” originally provided by DFAS.
           Comparisons of payroll file totals with amounts reported to OPM showed a slight
           improvement from FY 2005.

           Comparison of Payroll System Data to Official Personnel Files. We compared
           a sample of 270 employees’ pay and withholdings from six payroll data files to
           documentary support recorded in Official Personnel Files (OPFs). 2 Of the
           270 files, 180 represented DoD employees, 45 represented DOE employees, and
           45 represented HHS employees. Auditors for DOE and HHS reviewed their
           respective files and we relied on their work. Of the 270 files reviewed, 19 had a
           total of 24 discrepancies. Table 1 shows the breakdown, by entity, of OPFs with
           discrepancies.

                          Table 1. OPFs with Unresolved Discrepancies by Entity

                        Entity                    Number of OPFs             Number of Discrepancies

           Army 3                                            1                                 1
           Navy 4                                            1                                 1
           Air Force5                                        1                                 1
           National Guard Bureau                             1                                 2
           DOE                                               2                                 2
           HHS                                               9                                13
           Total OPF-related errors 5                       15                                20
           DFAS computation errors                           4                                 4
           Total                                            19                                24

           Of the 24 discrepancies:

                •   1 was in retirement withholding,

                •   16 were in Federal Employees’ Group Life Insurance (FEGLI),
                •   4 were in health insurance, and

                •   3 were in Thrift Savings Plan.



2
    Based on agreed-upon procedures, we selected a sample of 270 employees in accordance with criteria
    stated in OMB Bulletin 01-02. We did not project the results of our testing across the entire population.
3
    The documentation error may have occurred when the employee worked for another DoD agency before
    working for the Army.
4
    Personnel offices are taking corrective action.
5
    Errors caused by inconsistencies between OPF documents and DFAS payroll records.



                                                        2
        Resolution of Discrepancies. Initially, our review of the 270 employee
files indicated 39 OPFs with what appeared to be discrepancies. We provided the
affected entities with the names, social security numbers, and nature of the
discrepancies for each of the files. The personnel offices and DFAS subsequently
provided us with documentation that explained differences between data in 20 of
the 39 OPFs and data in the Defense Civilian Pay System (DCPS). As a result,
we reclassified 20 OPFs with explained inconsistencies to “samples corrected at a
later date.”

Of the 20 we reclassified as correct:

   •   1 was from Navy,

   •   4 were from Air Force,

   •   7 were from the Defense Agencies, and

   •   8 involved DFAS computations.

The Army, Navy, National Guard Bureau, DOE, HHS, and DFAS were unable to
clarify 19 out of 39 OPFs with 24 potential discrepancies despite additional
documentation.

        Causes of Discrepancies. Twenty of the unresolved discrepancies
resulted from OPF documentation that did not support DFAS pay and withholding
amounts because the documentation was not current. An additional four
unresolved discrepancies resulted from computation errors in which
documentation in the OPF was current but DFAS did not compute pay or
withholdings correctly.

Our review showed that 13 of the 20 unresolved discrepancies were attributable to
9 HHS employees’ OPFs, out of 45 employee files selected from the HHS payroll
database. This is a 20-percent error rate for the items sampled; however, the data
analyzed is not statistically projectable. The error rate in the HHS sample is
materially higher than the error rate for any other payroll database sampled. This
represents a material internal control weakness
Employee Head Count. The agreed-upon procedures require us to compare the
number of employees (headcount) in the payroll data files with the headcount in
the Supplemental Semiannual Headcount Report. Our headcounts of the
employees, using payroll data files, differed from the Supplemental Semiannual
Headcount Reports by less than 1 percent, well within the 2-percent reporting
threshold stated for headcount comparison in the agreed-upon procedures.

Life Insurance. Our recalculation of basic life insurance from the payroll data
files supported the amounts reported to OPM for all DoD, DOE and HHS payroll
offices with more than 30,000 employees. The overall calculated amount differed
by $0.14 million (0.83 percent) from the $17.0 million DFAS reported to OPM.
This is an improvement over the 1.11 percent difference reported for FY 2005.
The difference between the amounts we calculated and the amounts DFAS



                                        3
    reported to OPM did not exceed the 5-percent reporting threshold prescribed in
    the agreed-upon procedures.

    Health Insurance. Our recalculations of health insurance withholdings from
    payroll data files supported the amounts DFAS reported to OPM. The amounts
    we recalculated from the payroll data files varied from the amounts DFAS
    reported to OPM by percentages between .001 and 1.60 percent in total, including
    employee withholding and agency contributions for each payroll file. This was
    much lower than the prescribed reporting threshold of 5 percent for health
    insurance variances.

    Comparison of Amounts Transferred. We compared DFAS records with OPM
    documentation for the total dollar amounts transferred for the pay periods
    sampled. We found that all the amounts that DFAS reported equaled the amounts
    that OPM reported in the Retirement and Insurance Transfer System (RITS).

    We performed the agreed-upon procedures specifically pertaining to payroll. We
    were not engaged to and did not perform an audit with the objective of expressing
    an opinion on the withholdings and contributions for health benefits, life
    insurance, retirement, and on the employee headcount of the DoD, DOE, and
    HHS. Therefore, we are not expressing an opinion. However, we performed
    additional procedures based on generally accepted government auditing standards
    that we determined necessary to evaluate the integrity of the data.

    This report is intended solely for use by OPM’s Inspector General and its Chief
    Financial Officer. This report is prepared in the format directed by Office of
    Management and Budget Bulletin No. 01-02, October 16, 2000, to address the
    results of the agreed-upon procedures. Accordingly, this report should not be
    used by those who have not agreed to the procedures and have not taken
    responsibility for the sufficiency of the procedures for their purposes. In
    FY 2002, OMB added additional requirements that we obtain management
    comments on this report.

    In support of OPM’s plan to consolidate Federal payroll providers, DFAS
    administered DOE and HHS payroll functions in FY 2006. Therefore, we were
    the principal auditors responsible for auditing DOE and HHS civilian payroll
    data. Auditors from KPMG LLP performed the review of the 45 DOE OPFs.
    HHS auditors performed the review of the 45 HHS OPFs. We relied on the work
    of these other auditors for our reporting purposes.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Army, Navy, Air Force, National Guard Bureau,
    and Department of Energy continue to implement and improve personnel
    office payroll withholding procedures to ensure that payroll withholding
    authorizations support the amounts actually withheld.




                                        4
Management Comments. The Air Force concurred with the recommendation
and took responsive corrective action. The Army, Navy, National Guard Bureau,
and Department of Energy did not comment on the recommendation. We request
that they provide comments in response to the final report.

2. We recommend that the Inspector General, Department of Health and
Human Services, assist the Department of Health and Human Services’
personnel offices to ensure that payroll withholding authorizations support
the amounts withheld.

2. Management Comments. The Inspector General, Department of Health and
Human Services did not comment on the recommendation. We request that the
Inspector General, Department of Health and Human Services provide comments
in response to the final report.

3. We recommend that the Defense Finance and Accounting Service
implement internal controls over the computation of life insurance
withholdings to ensure that elements of gross pay, that are includable in the
pay base for computing life insurance withholding, are properly included.

Management Comments: The Director, Business Management Office Standards
and Compliance (the Director), responding for the Defense Finance and
Accounting Service concurred with the recommendation but nonconcurred with
the material internal control weakness. The Director stated that timekeepers use a
Last Hour Indicator to tell the payroll system to include differential pay elements
in the pay and withholding calculations, and that the problem essentially is a
training issue for timekeepers. Accordingly, the Defense Finance and Accounting
Service views the issue as an operational issue rather than a payroll system issue.
Defense Finance and Accounting Service officials propose sending a
memorandum to activity-level officials to advise them of the issue and stress
proper procedures. Defense Finance Accounting Service officials also propose a
training program for timekeepers on this issue.

Audit Response: The Director’s comments are unresponsive. We do not agree
that the withholding calculation errors do not result from a system weakness. The
pay bases for retirement and life insurance withholdings both include regular
earnings plus environmental and shift differential pay. We identified no examples
of improper retirement withholdings that resulted from incorrect inclusion or
exclusion of differential pay in the pay base. However, the payroll system
incorrectly calculated the life insurance withholding for four sample items in
which (a) the employee received shift and/or environmental differential pay, and
(b) the life insurance withholding election and the data in the payroll system were
in agreement.

The fact that the payroll system correctly calculated these employees’ retirement
withholdings demonstrates that the system can correctly calculate the base pay for
both retirement and life insurance withholding regardless of whether the
timesheet includes a Last Hour Indicator. Using the Last Hour Indicator can
distort the life insurance withholding, which should be computed based on the
amount actually earned. We will review this issue in more detail in a future audit.



                                     5
    Agreed-Upon Procedures and Associated Findings
                    (Attachment)

This attachment contains the OPM agreed-upon procedures, the auditor actions,
and the results of accomplishing those procedures.

Procedure. Obtain the Agency Payroll Office’s March Semiannual Headcount
Report submitted to OPM and a summary of the RITS submissions for the current
fiscal year. For retirement, health benefits, and life insurance, select any three
RITS submissions for the current fiscal year, one of which coincides with the
March Semiannual Headcount Report. Obtain payroll information for the periods
covered by the RITS submissions selected.

Auditor Action for DoD, DOE, and HHS. We obtained the Semiannual
Headcount Reports and the RITS submissions for each payroll database for the
pay periods ended October 29, 2005, February 18, 2006, and March 4, 2006. We
also obtained payroll database extracts for the three pay periods.

Procedure 1. Compare RITS submissions data with payroll information by
performing the following procedures:

Procedure 1.a. Recalculate the mathematical accuracy of the payroll
information. For cross-servicing agencies, if internal controls are the same for all
agencies serviced, it is only necessary to perform this procedure for one agency.

Auditor Action for DoD. DFAS extracted all seven DoD payroll data files from
the payroll history database and sent them to us by compact disc from the
Pensacola, Florida, operating location. We totaled the 21 payroll data files
(7 payroll files for 3 pay periods) with about $1.7 billion in total pay and about
691,000 employees in each pay period. We also totaled the Civil Service
Retirement System (CSRS), Federal Employees Retirement System (FERS),
health insurance, and life insurance withholdings. According to DFAS, the total
withholdings for DoD were approximately $91.9 million for CSRS, $25.2 million
for FERS, $140.2 million for health insurance, and $45.2 million for life
insurance.
Auditor Action for DOE. We performed the same procedure as for DoD. We
totaled the three payroll data files (one payroll file for three pay periods) with
about $39.4 million in total pay and about 10,800 employees in each pay period.
According to DFAS, the total withholdings for DOE were approximately
$15.4 million for CSRS, $23.7 million for FERS, $2.8 million for health
insurance, and $1.1 million for life insurance. The total gross payroll for DOE
was $118.1 million.

Auditor Action for HHS. We performed the same procedure as for DoD and
DOE. We totaled the three payroll data files (one payroll file for three pay
periods) with about $181.8 million in total pay and about 65,000 employees in
each pay period.




                                     6
According to DFAS, the total withholdings for HHS were approximately
$45.8 million for CSRS, $133.7 million for FERS, $12.4 million for health
insurance, and $4.4 million for life insurance. The total gross payroll for HHS
was $545.3 million.

Procedure 1.b. Recalculate the mathematical accuracy of each RITS submission
for the payroll information selected in step 1.a.

Auditor Action for DoD, DOE, and HHS. We recalculated the mathematical
accuracy of each RITS submission of payroll information for the pay periods
ended October 29, 2005, February 18, 2006, and March 4, 2006. OPM provided
copies of the RITS submission for the corresponding pay periods. Differences
between DCPS payroll file totals and the corresponding amounts in the RITS
submissions were within the 1-percent reporting threshold for these comparisons.

Procedure 1.c. Compare the employee withholding information shown on the
payroll information obtained in step 1.a. for retirement, health benefits, and life
insurance (as adjusted for reconciling items) to related amounts shown on the
RITS submission for the corresponding period.

Auditor Action for DoD, DOE, and HHS. We compared the employee
withholding totals to the related amounts shown on the RITS submission for
retirement, health benefits, and life insurance, as evidenced by a Form 2812 that
OPM produced from the RITS database. The payroll data file totals for CSRS,
FERS, health benefits, and life insurance substantially equaled the amounts on the
OPM Form 2812.

Procedure 2.a Randomly select a total of 25 individuals who were on the payroll
system for all three of the RITS submissions selected and meet all the following
criteria:

   •   covered by CSRS or FERS;

   •   enrolled in the Federal Employees Health Benefits Program;

   •   covered by Basic Life Insurance:

   •   covered by at least one FEGLI optional coverage (Option A, B, or C).

Auditor Action for DoD, DOE, and HHS. We randomly selected 25 individuals
from each of the six payroll files with more than 30,000 employees (four files for
DoD, one each for DOE and HHS) who were enrolled in the Federal retirement,
health benefits, and FEGLI programs.
Procedure 2.b. Obtain the following documents, either in electronic or hard copy
format, from the OPF for each individual selected in step 2.a. Hard copies can be
originals or certified copies.

   •   All Notifications of Personnel Actions (SF-50) covering the pay periods in
       the RITS submissions chosen;



                                      7
   •   the Health Benefit Registration Form (SF-2809) covering the pay periods
       in the RITS submissions chosen (note: a new SF-2809 is needed only if an
       employee is changing health benefit plans; therefore, the form could be
       many years old);

   •   the Life Insurance Election Form (SF-2817) covering the pay periods in
       the RITS submissions chosen (Note: a new SF-2817 is needed only if an
       employee is changing life insurance coverage; therefore, the form could be
       many years old).

Auditor Action for DoD. We obtained Notifications of Personnel Actions
(SF-50), Health Benefit Registration Forms (SF-2809), and Life Insurance
Election Forms (SF-2817) covering the pay period in the RITS submission
chosen.

Auditor Action for DOE and HHS. We verified that the auditors for DOE and
HHS obtained Notifications of Personnel Actions (SF-50), Health Benefit
Registration Forms (SF-2809), and Life Insurance Election Forms (SF-2817)
covering the pay period in the RITS submission chosen.

Procedure 2.c. Via the agency personnel office, request a report from Employee
Express for any health benefit transactions in that system for the individuals
selected in step 2.a. Compare the date of transaction with the date on the certified
copy of the SF-2809 requested in step 2.b. Confirm that the health benefit
information to be used in step 2.g. covers the pay periods in the RITS submissions
chosen.

Auditor Action for DoD, DOE, and HHS. We requested and received copies of
health benefits elections (when applicable) from automated systems. We verified
that the auditors for DOE and HHS received copies of health benefits elections
(when applicable) from automated systems.

Procedure 2.d. Compare the base salary used for payroll purposes, and on which
withholdings and contributions generally are based, with the base salary reflected
on the employee’s SF-50. Report any differences.
Auditor Action for DoD, DOE, and HHS. We compared the base salary used
for payroll purposes with the base salary reflected on the employees’ SF 50s. We
found no discrepancies for this comparison.

Procedure 2.e. For retirement, compare the plan code on the employee’s SF-50
to the plan codes used in the payroll system. Report any differences.

Auditor Action for DoD, DOE, and HHS. We compared the plan codes on the
employees’ SF-50s to the plan codes used in the payroll system. The DOE and
HHS auditors performed the same procedure for the DOE and HHS employees’
SF-50s. There were no differences between the retirement plan codes on the
employees’ SF-50s and the plan codes used in the payroll system.




                                     8
Procedure 2.f. Calculate the retirement amount to be withheld and contributed
for the plan code from the employees’ SF-50s, based on the official withholding
and contribution rates required by law. Compare the actual amounts withheld and
contributed. Report any differences.

Auditor Action for DoD. We calculated the retirement amount to be withheld
and contributed for the plan codes from the employees’ SF-50s, based on the
official withholding and contribution rates required. We compared the actual
amounts withheld and contributed for CSRS and FERS participants. There were
no differences between the amounts withheld and our calculated amounts.

Auditor Action for DOE. DOE auditors calculated the retirement amount to be
withheld and contributed for the plan codes from the employees’ SF-50s, based
on the official withholding and contribution rates required. They compared the
actual amounts withheld and contributed for CSRS and FERS participants. They
found no differences between the amounts withheld and their calculated amounts.

Auditor Action for HHS. HHS auditors calculated the retirement amount to be
withheld and contributed for the plan codes from the employees’ SF-50s, based
on the official withholding and contribution rates required. They compared the
actual amounts withheld and contributed for CSRS and FERS participants. They
found one difference. The employee participated in the CSRS-offset retirement
plan, for which the computation includes the health benefits withholding. The
employee had a variance in the health benefits withholding, which generated the
retirement discrepancy.

Procedure 2.g. For health benefits, compare the employee withholdings and
agency contributions with the official subscription rates issued by OPM for the
plan and option elected by the employees, as documented in the Health Benefits
Registration Forms (SF-2809) in the employees’ OPFs or Employee Express.
Report any differences.

Auditor Action for DoD, DOE and HHS. We obtained the official subscription
rates for health benefits issued by OPM for all plans and options available to
Federal employees. We compared the employee withholdings and agency
contributions with the official subscription rates issued by OPM for the plan and
option elected by the employees, as documented in the Health Benefits
Registration Forms (SF-2809) in the employees’ OPFs. The DOE and HHS
auditors performed the same procedure for their agencies’ employees. We found
no health withholding differences for DoD. The auditors for DOE found one
withholding discrepancy of $94.74. The HHS auditors found two withholding
discrepancies with a total value of $96.11.
Procedure 2.h. For life insurance, confirm that Basic Life Insurance was elected
by the employee, as documented by a Life Insurance Election Form (SF-2817), in
his/her OPF. Report any differences.

Auditor Action for DoD, DOE, and HHS. We compared Life Insurance
Election Forms (SF-2817) with withholding data in DCPS. The DOE and HHS
auditors performed the same procedure for the DOE and HHS sample employees.
We found one exception for DoD, in which an employee had no life insurance


                                    9
withholding but the employee did not waive coverage. We found one similar
exception for DOE. We did not find any exceptions for HHS for this comparison.

Procedure 2.i. Calculate the withholding and contribution amounts for basic life
insurance using the following:

   •   For employee withholdings: Round the employee’s annual base salary to
       the nearest thousand dollars and add $2,000. Divide this total by 1,000
       and multiply by $0.15 (for Agency Payroll Offices with biweekly pay
       periods) or $0.3358 (for Agency Payroll Offices with monthly pay
       periods).

   •   For agency contributions: Divide the employee withholdings calculated
       above by two.

Auditor Action for DoD, DEO, and HHS. We calculated the withholding and
contribution amounts for basic life insurance by rounding the employee’s annual
base salary to the nearest thousand dollars and adding $2,000, then dividing the
result by 1,000 and multiplying by $0.15. We identified four discrepancies for
this comparison. DFAS caused the discrepancies by not including the correct
amount of shift and environmental differential pay in the pay base for
withholding.

Procedure 2.j. Also, for life insurance, compare optional coverage elected as
documented by an SF-2817 in the employee’s OPF with optional coverage
documented in the payroll system. Report any differences.

Auditor Action for DoD. We obtained SF-2817s directly from employees’ OPFs
and electronic personnel data files. We obtained optional life insurance coverage
data from DCPS. We compared optional life insurance coverage elected as
documented on the SF-2817s with optional life insurance coverage as recorded in
DCPS. We identified one difference for DoD, with a total value of $0.60.

Auditor Action for DOE. The DOE auditors did not identify any discrepancies
for this comparison.
Auditor Action for HHS. The HHS auditors identified nine discrepancies for
this comparison, with a total dollar value of $101.28.

Procedure 2.k. Calculate the withholding amounts for optional life insurance
using the following:

   •   For Option A: Determine the employee’s age group using the age groups
       provided for Option A in the FEGLI Program Booklet. The withholding
       amount is the rate listed in the FEGLI program booklet for that age group.
       Compare to the amount withheld. Report any differences.

   •   For Option B: Inspect the SF-2817 to determine the number of multiples
       chosen for Option B. Determine the employee’s age group using the age
       groups provided for Option B in the FEGLI Program Booklet. Round the
       employee’s annual rate of base pay up to the next 1,000, divide by 1,000,


                                   10
       and multiply by the rate for the age group. Multiply this amount by the
       number of multiples chosen. Compare to the amount withheld. Report
       any differences.

   •   For Option C: Inspect the SF-2817 to determine the number of multiples
       chosen for Option C. Determine the employee’s age group using the age
       groups provided for Option C in the FEGLI Program Booklet. Multiply
       the rate for the age group by the number of multiples chosen. Compare to
       the amount withheld. Report any differences.

Auditor Action for DoD. We calculated the amounts for optional life insurance
as prescribed in Procedure 2.k. We identified three DoD optional life insurance
discrepancies. The discrepancies resulted from DFAS errors in computing the
FEGLI withholding base. The dollar value of these discrepancies totaled $2.97.

Auditor Action for DOE. The DOE auditors performed the same procedures
and did not identify any discrepancies for this comparison.

Auditor Action for HHS. The HHS auditors performed the same procedures and
did not identify any discrepancies for this comparison.

Procedure 3. Randomly select a total of 10 employees who have no health
benefit withholdings from the payroll information corresponding to the RITS
submissions selected for testing.

Request SF-2809s covering the pay periods in the RITS submissions chosen,
whether in electronic or hard copy format, from the selected employees’ OPFs.
Hard copies can be originals or certified copies. Via the agency personnel office,
request a report from Employee Express for any health benefits transactions in
that system for individuals selected. Inspect the documentation to determine that
health benefit coverage was not elected. This can be determined in the following
ways:

   •   Absence of an SF-2809 in the OPF and no election of coverage made
       through Employee Express.

   •   An SF-2809 in the OPF with Section E checked (indicating cancellation of
       coverage) and no later election of coverage through Employee Express.

   •   Cancellation of coverage through Employee Express and no later election
       of coverage with an SF-2809. Report any exceptions.

Auditor Action for DoD. We randomly selected 10 employees from each of the
payroll data files who had no health benefits withholdings according to the
payroll information corresponding to the RITS submissions selected for testing.
We reviewed SF-2809s in the OPFs and electronic personnel databases. We
found one discrepancy for DoD.
Auditor Action for DOE. We randomly selected 10 employees from the DOE
payroll data file who had no health benefits withholdings according to the payroll



                                    11
information corresponding to the RITS submissions selected for testing. The
DOE auditors reviewed SF-2809s in the OPFs and electronic personnel databases.
We found no discrepancies for DOE for this procedure.

Auditor Action for HHS. We randomly selected 10 employees from the
HHS payroll data file who had no health benefits withholdings according to the
payroll information corresponding to the RITS submissions selected for testing.
The HHS auditors reviewed SF-2809s in the OPFs and electronic personnel
databases. The HHS auditors obtained transaction records from Employee
Express (where necessary) to perform this procedure. We found no discrepancies
for HHS for this procedure.

Procedure 4. Randomly select a total of 10 employees who have no life
insurance withholding from the payroll information corresponding to the three
RITS submissions selected for testing. Request the SF-2817s covering the pay
periods in the RITS submissions chosen, in either electronic or hard copy format,
from the selected employees’ OPFs. Hard copies can be originals or certified
copies. Inspect the SF-2817 to determine that the employee waived or canceled
Basic Life Insurance coverage. Report any exceptions.

Auditor Action for DoD, DOE, and HHS. We randomly selected 10 employees
from each payroll data file who had no life insurance withholdings according to
the DCPS payroll files. We requested and obtained the SF-2817s covering the
pay periods corresponding to the RITS submissions chosen. We inspected the
SF-2817s in all instances when the coverage was waived or canceled and found
one DoD discrepancy for this procedure. The DOE auditors performed the same
procedure and found one discrepancy for this procedure. The HHS auditors
performed the same procedure and found no discrepancies for this procedure.

Procedure 5. Recalculate the headcount reflected on the Semiannual Headcount
Report selected for testing above, as follows:

Procedure 5.a. Obtain existing payroll information supporting the selected
Supplemental Semiannual Headcount Report selected for testing above, as
follows:
   •   benefit category (see Semiannual Headcount Report),

   •   dollar amount of withholdings and contributions,

   •   number enrolled (deductions made/no deductions),

   •   central personnel data file code, and

   •   aggregate base salary.

Procedure 5.b. Recalculate the headcount reflected on the Semiannual
Headcount Report. If an electronic file is not available, a suggested method of
recalculating the headcount is as follows: (1) estimate the number of employees
per payroll register page by counting the employees listed on several pages, (2)
count the number of pages in the payroll register, and (3) multiply the number of


                                    12
employees per page by the number of pages, or count (using computer audit
routine) the number of employees on the payroll data file for the period.

Procedure 5.c. Compare the results of payroll information from step 5.a. with
the calculated headcount from step 5.b. to information shown on the Semiannual
Headcount Report.

Procedure 5.d. Report any differences (i.e. gross rather than net) greater than
2 percent between the headcount reported on the agency’s Semiannual Headcount
Report and payroll information from step 5.a. and the calculated headcount from
step 5.b.

Auditor Action for DoD, DOE, and HHS. We obtained the DFAS
Supplemental Semiannual Headcount Report for the pay periods ended
February 18, 2006, for Payroll Offices 0800 and 1400 and March 4, 2006, for
Payroll Offices 0100, 0500, 0600, and 1500. We compared those headcount
reports to the payroll data files for the same pay periods. The counts in the
payroll data files differed from the headcount reports by one employee (0.0001
percent), which is well within the reporting threshold of 2 percent.

Procedure 6. Calculate employer and employee contributions for retirement,
health benefits, and life insurance.

Procedure 6.a. Calculate retirement withholdings and contributions for the three
pay periods selected.

Procedure 6.a.i. Multiply the CSRS and FERS payroll base by the withholding
and employer contribution rates required by law.

Procedure 6.a.ii. Compare the calculated totals with related amounts shown on
the RITS submissions. Report any variances (i.e. gross rather than net) between
the calculated amounts and the amounts reported on the RITS submissions greater
than 5 percent of the amounts on the RITS submissions.

Auditor Action for DoD, DOE, and HHS. We calculated the total CSRS and
FERS retirement employee withholdings and employer contributions for the three
pay periods that we reviewed, and compared the recalculated totals with the
amounts shown on the RITS submissions. The differences between the calculated
totals of CSRS and FERS employee retirement withholdings and employer
contributions, and the related amounts shown on the RITS submissions ranged
from less than 0.01 percent to 1.7 percent, within the 5-percent reporting
threshold.
Procedure 6.b. Calculate employee withholdings and employer contributions for
health benefits for the three pay periods selected.

Auditor Action for DoD, DOE, and HHS. We obtained the number of
employees enrolled in each health insurance plan for each payroll data file from
data provided by DFAS as RITS submissions. We obtained the official
subscription rates for health benefits issued by OPM for all plans and options
available to Federal employees from the OPM website. We extended and added


                                    13
totals and compared the results with the health insurance withholdings and
contribution amounts shown on the OPM Collection and Deposit System
Standard Form 2812. None of the payroll offices had variances greater than the
5-percent reporting threshold for this comparison.

Procedure 6.c. Calculate the basic life insurance employee withholdings and
employer contributions for the three pay periods selected.

Auditor Action for DoD, DOE, and HHS. We totaled the amount of gross pay
of employees in each payroll data file who were eligible for basic life insurance.
We divided this sum by 80 and multiplied by 2,087 to determine annual gross
earnings of employees electing basic life insurance coverage. We used data from
DCPS to obtain a count of the number of employees electing basic life insurance
for each payroll data file. We multiplied 2,000 times the number of employees
electing basic life and added the result to gross pay of employees who were
eligible for basic life insurance. We multiplied the result by 15 cents per
thousand to estimate basic life withholding, and compared the result with the
withholding amounts shown on the Form 2812. We did not find any payroll
offices variances greater than the 5-percent reporting threshold for this
comparison. To estimate agency contributions, we divided the estimated basic
life withholding by two and compared it to employer basic life contributions
shown on Form 2812. All payroll offices’ variances were less than the 5-percent
reporting threshold for this comparison.

Procedure 6.d. Calculate the Option A, Option B and Option C Life Insurance
coverage withholdings for the three pay periods selected by using detail payroll
reports used to reconcile the RITS reports in Step 1. In addition to the
information used for step 1, the reports should include the employee’s date of
birth, annual rate of basic pay, and number of multiples selected for Option B and
C. Note: While similar to step 2.k., the calculation here is for the entire amount
reported on the RITS submissions for the three pay periods selected, as opposed
to the sample of 25 employees in step 2.k.

Procedure 6.d.i. Multiply the number of employees in each age group by the
appropriate rate for Option A in accordance with the rates for age groups
provided in the FEGLI Program Booklet. Report any differences (i.e., gross
rather than net) greater than 2 percent of the amounts on the RITS submission.
Auditor Action for DoD, DOE, and HHS. We multiplied the number of
employees in each age group by the appropriate rate for Option A in accordance
with the rates for age groups provided in the FEGLI Program Booklet. We
totaled the results for each payroll data file and compared the results with the
corresponding amounts on the RITS submissions. We determined that all
variances were within the 2-percent reporting threshold for this comparison.

Procedure 6.d.ii. Divide the reports for Option B and Option C insurance into
the age groups shown in the FEGLI Program Booklet. For Option B, round the
employee’s annual rate of basic pay up to the next 1000, divide by 1000, multiply
by the rate for the age group, multiply this by the number of multiples (Annual
rate of basic pay (rounded up)/1000 x rate x multiples). For Option C, multiply



                                    14
the rate for the age group by the number of multiples chosen for each employee.
Report any differences (i.e. gross rather than net) greater than 2 percent of the
amounts on the RITS submission for Option B and/or Option C.

Auditor Action for DoD, DOE, and HHS. We identified the payroll records for
those employees who elected Options B and C, and those who elected each
number of multiples of coverage within the allowable range (one through five
multiples) using the payroll data files, for each payroll database for each of the
three pay periods we reviewed. We multiplied the results by the official
withholding rates shown in the FEGLI Program Booklet, times the number of
multiples of coverage elected, to reconstruct the total withholdings for Options B
and C. We compared this result with the amounts shown on the corresponding
RITS submissions. We determined that all variances were within the 2-percent
reporting threshold for this comparison.




                                    15
Appendix A. Scope and Methodology
   We totaled the DFAS payroll files that included about 767,000 DoD, DOE, and
   HHS employees with a total gross payroll of about $5.6 billion for the 7 DoD
   payroll offices plus the DOE and HHS payroll offices for the 3 pay periods we
   reviewed. This total included all payroll offices regardless of the number of
   employees. The agreed-upon procedures require a review of only those payroll
   offices that service 30,000 or more employees. Three of the seven DoD payroll
   offices service fewer than 30,000 employees and are included in the total but not
   in the audit sample.

   We reviewed payroll data and documentation supporting $751 million for
   retirement, life insurance, health insurance, and Thrift Savings Plan withholdings
   reported each year by DFAS to OPM for DoD, DOE, and HHS civilian personnel.
   The total DoD plus DOE and HHS payroll was for about 767,000 employees with
   an annual payout of about $48.8 billion.

   We performed the agreed-upon procedures required by OMB. Specifically, we
   reviewed data and documentation supporting gross pay and payroll withholdings
   that DFAS reported to OPM for the three pay periods ended October 29, 2005;
   February 18, 2006; and March 4, 2006. We also reviewed management controls
   over the reporting process. We compared the payroll data files with personnel
   forms for 270 randomly selected employees for gross pay, retirement, health
   insurance, and life insurance.

   We also verified payroll data file totals and calculations of life insurance, health
   insurance, and retirement withholdings. We performed additional procedures
   based on generally accepted government auditing standards that we considered
   necessary in the circumstances.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the DCPS that processes payroll data, although we did rely
   on data produced by that system to conduct the audit. We determined data
   reliability by totaling the data provided to us from the system and comparing the
   totals to summary documents previously prepared from the system. Not
   evaluating the controls did not affect the results of the application of the agreed-
   upon procedures.
   Work of Other Auditors. Auditors from KPMG LLP performed the agreed-
   upon procedures that involved reviewing OPFs for DOE. Auditors from the
   Office of the Inspector General, Department of Health and Human Services,
   performed the agreed-upon procedures that involved reviewing OPFs for HHS.
   We reviewed their working papers and determined that we can rely on their work.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management high-risk area.




                                        16
Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, * require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Management Control Program. We assessed
           whether employees’ elections for payroll withholding supported amounts actually
           withheld. We also tested for the retention of payroll withholding election
           documents in the OPFs. We also assessed the adequacy of management controls
           over reporting payroll summary data to OPM through the RITS system. We
           reviewed the annual statements of assurance by the Military Departments and
           Defense agencies to determine whether they disclosed the inconsistency between
           OPFs and the DCPS payroll withholding data.

           Adequacy of Internal Controls. We identified a material internal control
           weakness for agency personnel offices and DFAS.

                  Agency Personnel Offices. We identified weaknesses in DoD, DOE, and
           HHS personnel offices’ management controls involving accuracy of payroll
           withholding elections and retention of elections in OPFs. The weak controls did
           not ensure proper withholdings from earnings for employee benefits and did not
           ensure retention of documents supporting payroll withholding maintained in the
           OPFs.

           The HHS auditors identified 9 audit sample employees’ OPFs out of 45 reviewed
           (a 20-percent error rate for their sample) that did not include documentation to
           support payroll withholdings, indicating weak internal controls. The HHS error
           rate is significantly higher than the error rates found for DoD and DOE personnel
           office samples. However, the sample cannot be statistically projected to all
           payroll.
                  Defense Finance and Accounting Service. We identified errors in pay
           and withholding computations in cases where documentation in the OPF was
           consistent with data in DCPS. This indicates a control weakness over pay and
           withholding computations.
           Adequacy of Management’s Self-Evaluation. Self-evaluation by the Military
           Departments did not identify the weakness. Management did not report the
           weakness in their Annual Statements of Assurance because management did not
           treat this area as an assessable unit.


*
    Office of Management and Budget Circular No. A-123, “Management’s Responsibility for Internal
    Control,” December 21, 2004, provides updated internal control standards and new requirements for
    conducting management’s assessment of internal control over financial reporting. Revised OMB Circular
    No. A-123 became effective in FY 2006. Subsequently, DoD canceled DoD Instruction 5010.40 and
    issued DoD Instruction 5010.40, Managers’ Internal Control Program Procedures,” January 4, 2006.



                                                    17
Appendix B. Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    and the Air Force Audit Agency (AFAA) have conducted multiple reviews related
    to civilian payroll information, controls over the payroll process, and payroll
    expenses. Unrestricted DoD Office of Inspector General reports are on the
    internet at http://www.dodig.mil/audit/reports. Unrestricted Air Force Audit
    Agency reports are on the Intranet at
    https://www.afaa.hq.af.mil/domainck/index.shtml.


DoD IG
    DoD IG Report No. D-2006-002, “DoD Civilian Payroll Withholding Data for
    FY 2005,” October 6, 2005

    DoD IG Report No. D-2005-036, “DoD Civilian Payroll Withholding Data for
    FY 2004,” February 17, 2005

    DoD IG Report No. D-2004-051, “DoD Payroll Withholding Data for FY 2003,”
    February 6, 2004

    DoD IG Report No. D-2003-060, “DoD Payroll Withholding Data for FY 2002,”
    March 18, 2003

    DoD IG Report No. D-2002-070, “DoD Payroll Withholding Data for FY 2001,”
    March 25, 2002

    DoD IG Report No. D-2001-109, “DoD Payroll Withholding Data for FY 2000,”
    April 27, 2001


Air Force
    AFAA Report No. F2004-0001-FB1000, “Civilian Premium Payment,”
    October 1, 2003




                                      18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Chief, National Guard Bureau
Director, Defense Commissary Agency
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, National Security Agency

Non-Defense Federal Organizations
Office of Management and Budget
Office of Personnel Management
Department of Energy
Department of Health and Human Services




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Department of the Air Force Comments




                     21
Defense Finance and Accounting Service
Comments




                      22
23
24
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Douglas P. Neville
Thomas J. Winter
Jonathan Rabben
Ariel Vega
James Davis
